HHS/OIG, Audit - "Review of Cataract Global Surgeries and Related
Evaluation and Management Services, Wisconsin Physicians Service Insurance
Corporation Calendar Year 2003," (A-05-06-00040)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Cataract Global
Surgeries and Related Evaluation and Management Services, Wisconsin Physicians
Service Insurance Corporation Calendar Year 2003," (A-05-06-00040)
March 5, 2007
Complete Text of Report is available in PDF format (185 kb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our review was to determine whether Wisconsin Physicians Service (WPS) properly reimbursed physicians for cataract global surgeries and related evaluation and management (E&M) services during the global periods. Based on a sample of cataract global surgeries, we have determined that generally WPS properly reimbursed physicians for the surgeries and related E&M services provided during the global periods. The report contains no recommendations.